HHS/OIG, Audit - "Review of Improper Temporary Assistance for Needy
Families Basic Assistance Payments in New York State for July 1 Through December
31, 2005," (A-02-06-02015)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Improper Temporary Assistance for Needy Families Basic Assistance Payments in
New York State for July 1 Through December 31, 2005," (A-02-06-02015)
October 31, 2007
Complete
Text of Report is available in PDF format (278 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From July 1 through December 31, 2005, the State agency
made some Temporary Assistance for Needy Families (TANF) basic assistance
payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations.  Based on the sample
results, we estimated that the overall TANF improper payment rate was 28.5
percent of the Federal dollars expended and 46 percent of the number of payments
made for basic assistance during the 6-month audit period.  In addition, the
State agency inaccurately reported basic assistance expenditures to the
Administration for Children and Families (ACF),
primarily by reporting expenditures for items that did not meet the definition
of basic assistance.
We recommended that the State agency (1) use the results
of this review to help ensure compliance with Federal and State TANF
requirements, (2) consider conducting quality control reviews of TANF basic
assistance eligibility and payment processes, (3) determine the current
eligibility of all recipients identified in this review as improperly enrolled
in the TANF program and ensure that further assistance is denied for those who
remain ineligible, (4) recalculate assistance budgets for all recipients
identified in this review as having received improperly calculated payments, and
(5) ensure that TANF basic assistance expenditures are accurately reported on
its quarterly reports to ACF.  In its comments on the draft report, the State
agency did not specifically address the recommendations.